/A pp€^dvX A

FILED

NOT FOR PUBLICATION

AUG 24 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
SEDFREY M. LINSANGAN,
Plaintiff-Appellant,

No.

U.S. COURT OF APPEALS

20-15103

D.C. No. l:17-cv-00128

v.

MEMORANDUM*
ALICE M. TAIJERON; et al„
Defendants-Appellees.
Appeal from the United States District Court
for the District of Guam
Frances Tydingco-Gatewood, Chief District Judge, Presiding
Submitted August 4, 2020**
San Francisco, California
Before: THOMAS, Chief Judge, and HAWKINS and McKEOWN, Circuit
Judges.
Sedfrey Linsangan appeals pro se from the district court’s order dismissing his .
42 U.S.C. § 1983 action because he lacked standing. We have jurisdiction under 28

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

U.S.C. § 1291. We review de novo, Whitmore v. Fed. Election Comm’n, 68 F.3d
1212, 1214 (9th Cir.1996), and we affirm.
“The ‘irreducible constitutional minimum of standing’ contains three parts: (1)
injury in fact; (2) causation; and (3) likelihood that the injury will be redressed by a
favorable decision.” Am. Civil Liberties Union ofNev. v. Lomax, 471 F.3d 1010,
1015 (9th Cir. 2006) (citation omitted).
The district court properly dismissed Linsangan’s action for lack of standing
because Linsangan’s allegations of harm are not particularized or imminent. See
Lujan v. Defs. of Wildlife, 504 U.S. 555, 560 (1992). A plaintiff “must show that
he has suffered, or will imminently suffer, a concrete and particularized injury to a
judicially cognizable interest.” Davis v. Guam, 785 F.3d 1311, 1314 (9th Cir.
2015) (internal quotation marks and citation omitted). Linsangan’s allegation that
“he would like to run for Governor” but cannot under the current statutory
limitations does not state an imminent harm. See Lujan, 504 U.S. at 564 (“an
‘inten[t]’...is simply not enough”); Scott v. Pasadena UnifiedSch. Dist., 306 F.3d
646, 656 (9th Cir. 2002) (“The mere existence of a statute, which may or may not
ever be applied to plaintiffs, is not sufficient to create a case or controversy within
the meaning of Article III.” (quotation marks and citation omitted)). The
remaining alleged injuries are not particularized to his situation; rather, they are
generalized grievances. See Carroll v. Nakatani, 342 F.3d 934, 940 (9th Cir. 2003)

2

(holding that a “generalized grievance against allegedly illegal government
conduct” is insufficient to confer standing).
AFFIRMED.

3

---

1
2
3
4
5
6
7
8

THE DISTRICT COURT OF GUAM
SEDFREYM. LINSANGAN,
Plaintiff,

9
10
11
12
13
.14
15

CIVIL CASE NO. 17-00128
ORDER RE MOTION TO DISMISS,
REPORT & RECOMMENDATION, AND
OBJECTIONS

vs.
ALICE M. TAIJERON, JADEEN L.
TUNCAP, G. PATRICK CIVILLE,
JOSEPH P. MAFNAS, JOAQUIN P.
PEREZ, MICHAEL J. PEREZ, and
BENNY A. PINAULA,
Defendants.

Before the Court are Defendants’ motion to dismiss (ECFNo. 41) the Amended

16

Complaint (“Compl.”) (ECF No. 33), the U.S. Magistrate Judge’s report and recommendation on

17

said motion (ECF No. 48), and the parties’ respective objections thereto (ECF Nos. 49, 51, 52).

18

For the reasons stated below, the Court concludes that Plaintiff lacks standing to pursue his

19

claims and, alternatively, that Plaintiff’s claims are not ripe for adjudication. The Court also

20

concludes that further amendment of the complaint would be futile. Accordingly, the Court

21

dismisses the Amended Complaint without leave to amend. In light of this ruling, the parties’

22

other objections to the Report & Recommendation are moot and are therefore not considered.

23
24

I. BACKGROUND
The Guam Election Commission (“GEC”) held a meeting in May 2017, at which Plaintiff

25

told the members of the commission that he would like to run for Governor of Guam. Compl. at

26

4. Plaintiff was informed that Guam law, 3 G.C.A. § 15404(a), requires gubernatorial candidates

27

to have a running mate in order to be placed on the ballot in the primary election. Id. Plaintiff

28

challenged this provision, as well as the requirement that nominating petitions for the positions

1
Case l:17-cv-00128 Document 57 Filed 01/14/20 Page 1 of 8

1

of governor and lieutenant governor bear the signatures of 500 qualified electors, 3 G.C.A.

2

§ 15205, which Plaintiff contends is excessive. Compl. at 4. Members of the Guam election

3

commission informed Plaintiff that the commission is “just following the law” and that he

4

“would have to see the Legislature” to obtain redress regarding the challenged provisions. Id.

5

Plaintiff did not obtain a gubernatorial candidate packet or submit an application, but

6

instead filed the present lawsuit, challenging the provisions noted above. Plaintiff seeks an order

7

declaring the GEC’s conduct of the primary election “unconstitutional, unorganic, undemocratic,

8

and a deprivation of the rights of US citizens.” Id. at 5. Plaintiff also requests that the Court

9

“order [the GEC] to accept and certify all the Governor and Lt. Governor candidates even

10

without a running mate in the primary election,” id., and lower the number of petition signatures

11

required from 500 to 50, id. at 6.

12

On July 12, 2018, Defendants filed a motion to dismiss, arguing that Plaintiff lacks

13

standing to bring the present claims and that the operative complaint fails to state a claim upon

14

which relief can be granted. See ECF No. 41. The Magistrate Judge issued a Report &

15

Recommendation on April 12, 2019, recommending that Defendant’s motion be denied insofar as

16

it seeks dismissal for lack of standing, but that the motion be granted with leave to amend insofar

17

as it seeks dismissal for failure to state a claim. See ECF No. 48. Defendants objected to the

18

Report & Recommendation’s finding that Plaintiff has standing and its recommendation that

19

leave to amend should be granted. See ECF No. 52. Plaintiff objected to the Report &

20

Recommendation’s finding that the operative complaint fails to state a claim upon which relief

21

can be granted. See ECF Nos. 49, 51. Plaintiff also filed a request for a hearing on the matter, see

22

ECF No. 50, which the Court granted, see ECF No. 53. The hearing was held on January 9,

23

2020. See ECF No. 56.

24

H. LEGAL STANDARD

25

The Magistrates Act requires the court to “make a de novo determination of those

26

portions of the report or specified proposed findings or recommendations to which objection is

27

made.” 28 U.S.C. § 636(b)(1). In conducting such review, the court “may accept, reject, or

28

modify, in whole or in part, the findings or recommendations made by the magistrate judge.” Id.
2

Case l:17-cv-00128 Document 57 Filed 01/14/20 Page 2 of 8

1

“To satisfy the standing requirements imposed by the ‘case’ or ‘controversy’ provision of

2

Article HI, [Plaintiff] must show that he has suffered, or will imminently suffer, a concrete and

3

particularized injury to a judicially cognizable interest.” Davis v. Guam, 785 F.3d 1311, 1314

4

(9th Cir. 2015) (internal quotations, citations omitted). “That injury must be fairly traceable to

5

the challenged action of the defendants, and it must appear likely that the injury would be

6

prevented or redressed by a favorable decision.” Id. The standing issues raised by Defendants

7

could, in many ways, be characterized as questions of ripeness. “Sorting out where standing ends

8

and ripeness begins is not an easy task.” Thomas v. Anchorage Equal Rights Comm ’n, 220 F.3d

9

1134, 1138 (9th Cir. 2000). Indeed, “[t]he constitutional component of the ripeness inquiry is

10

often treated under the rubric of standing and, in many cases, ripeness coincides squarely with

11

standing’s injury in fact prong.” Id.

12

In addition to its constitutional component, the ripeness inquiry also contains a prudential

13

component. Id. “In evaluating the prudential aspects of ripeness, [the Court’s] analysis is guided

14

by two overarching considerations: ‘the fitness of the issues for judicial decision and the

15

hardship to the parties of withholding court consideration.’” Id. at 1141 (quoting Abbott

16

Laboratories v. Gardner, 387 U.S. 136, 149 (1967)).

17

m. DISCUSSION

18

Defendants object to the Magistrate Judge’s finding that Plaintiff has suffered or will

19

imminently suffer a particularized and concrete injury sufficient to confer standing. ECF No. 52

20

(“Defs.’ Objections”) at 3. Plaintiff alleges that “Defendants[’] actions deprived [him] of [his]

21

right to run for Governor.” Compl. at 4. Defendants, on the other hand, contend that they “did not

22

and could not deny his candidacy” because he “did not obtain or submit a gubernatorial

23

candidate packet or application.” Defs.’ Objections at 3. As noted above, “in measuring whether

24

the litigant has asserted an injury that is real and concrete rather than speculative and

25

hypothetical, the ripeness inquiry merges almost completely with standing.” Thomas, 220 F.3d at

26

1139.

27
28
3
Case l:17-cv-00128 Document 57 Filed 01/14/20 Page 3 of 8

1
2

A.

Constitutional Inquiry
In order to have standing to assert his claims, Plaintiff must allege facts establishing a

3

past, present, or imminent concrete injury, fairly traceable to the challenged conduct of

4

Defendants, that is likely to be redressed or prevented by a favorable decision by the Court.

5

Reading the complaint liberally, in light of Plaintiff’s pro se status, the Court finds that Plaintiff

6

has sufficiently alleged that he wishes to appear as a candidate for governor in the primary

7

election and that one or more defendants informed Plaintiff of the existence of certain provisions

8

of law that apply to those seeking such placement on the ballot. The Court concludes, however,

9

that these allegations—in the absence of any allegations that Defendants denied an application

10

by Plaintiff on the basis of those provisions—are not sufficient to establish standing to challenge

11

those provisions of law.

12

The Court notes that this case is significantly different from Davis v. Guam, 785 F.3d

13

1311 (9th Cir. 2015), where the plaintiff was found to have standing to stage a facial challenge to

14

a law restricting his access to a particular voter registry. In Davis, the plaintiff “tried to register

15

with the Decolonization Registry, but the application was rejected” because of the challenged

16

provision of law. Id. at 1314. The Ninth Circuit found that the rejection of Davis’s application

17

constituted sufficient injury to confer standing. Here, Plaintiff attempts to challenge the

18

provisions at issue without first submitting an application and receiving a rejection from the

19

GEC. However, “[t]he mere existence of a statute, which may or may not ever be applied to

20

plaintiffs, is not sufficient to create a case or controversy within the meaning of Article III.” Scott

21

v. Pasadena Unified Sch. Dist., 306 F.3d 646, 656 (9th Cir. 2002). Plaintiff’s allegation that he

22

“would like to run for Governor” is simply not enough to establish an “imminent” injury to

23

Plaintiff resulting from the challenged provisions of law. Cf. Lujan v. Defenders of Wildlife, 504

24

U.S. 555, 564 (1992) (“[T]he affiants’ profession of an ‘intenft]’ to return to the places they had

25

visited before—where they will presumably, this time, be deprived of the opportunity to observe

26

animals of the endangered species—is simply not enough. Such ‘some day’ intentions—without

27

any description of concrete plans, or indeed even any specification of when the some day will

28
4
Case l:17-cv-00128 Document 57 Filed 01/14/20 Page 4 of 8

1

be—do not support a finding of the ‘actual or imminent’ injury that our cases require.”)

2

(emphasis in original). ,

3

Even if Plaintiff had alleged plans to run for Governor specific enough to establish the

4

imminent submission of an application, his alleged injury would still be too speculative. The

5

harm alleged by Plaintiff assumes not only that Plaintiff’s application will in fact be submitted

6

without listing a running mate and without the requisite number of signatures, but also that the

7

basis for any rejection of the application by the GEC will be one or both of these reasons, rather

8

than a failure to timely file the application, a failure to properly fill out the application, or a

9

failure to meet any other criterion for placement on the primary ballot. The complaint essentially

10

asks the court to presume that Plaintiff’s hypothetical application will not only be filed, but that

11

the GEC will have no basis for rejecting the application other than the legal provisions he seeks

12

to challenge.

13

The fact that Plaintiff has neither filed an application with nor received a rejection from

14

the GEC also raises serious redressability concerns. For example, Plaintiff requests that the Court

15

order the GEC to lower the number of petition signatures required to run for Governor from 500

16

to 50. If the GEC had rejected a petition in support of Plaintiff’s candidacy that contained 50

17

signatures, then it would be clear that the relief requested by Plaintiff would effectively remedy

18

his exclusion from the primary ballot.1 As the case is currently presented to the Court, however,

19

the ability of Plaintiff’s requested relief to remedy his exclusion from the primary ballot depends

20

on Plaintiff’s ability to obtain at least 50 signatures in support of his candidacy for Governor. The

21

efficacy of the relief sought therefore depends on the actions of third parties that the Court has no

22

power to control.

23

The Court accordingly finds that the complaint fails to allege facts establishing an

24

imminent, concrete injury that is likely to be prevented or redressed by a favorable court decision

25

and that his claims are therefore constitutionally unripe.

26
27
28

This, again, assumes that the GEC would have no other valid basis for excluding Plaintiff from
the ballot.
5
Case l:17-cv-00128 Document 57 Filed 01/14/20 Page 5 of 8

1

B.

Prudential Inquiry

2

Even if the Court were to find that Plaintiff has “presented] a ripe case or controversy in

3

the constitutional sense,” the Court would nonetheless “decline to exercise jurisdiction under the

4

prudential component of the ripeness doctrine.” Thomas v. Anchorage Equal Rights Comm ’n,

5

220 F.3d 1134, 1141 (9th Cir. 2000). “In evaluating the prudential aspects of ripeness, [the

6

Court’s] analysis is guided by two overarching considerations: ‘the fitness of the issues for

7

judicial decision and the hardship to the parties of withholding court consideration.’” Id. (quoting

8

Abbott Laboratories v. Gardner, 387 U.S. 136, 149 (1967)).

9
10

1.

Fitness for Judicial Resolution

Although Plaintiff’s challenges to the statutory provisions at issue are facial challenges—

11

which makes the issues more amenable to early judicial resolution than an as-applied

12

challenge—the court nonetheless concludes that Plaintiff’s challenges are more appropriately

13

adjudicated in the context of a specific application for candidacy. “Determination of the scope

14

and constitutionality of legislation in advance of its immediate adverse effect in the context of a

15

concrete case involves too remote and abstract an inquiry for the proper exercise of the judicial

16

function.” Renne v. Geary, 501 U.S. 312, 323 (1991). Accordingly, the Supreme Court has

17

cautioned against zealously proceeding to “resolv[e] the facial constitutionality of [a statute]

18

without first addressing its application to a particular set of facts.” Id. This is because “[a]

19

concrete factual situation is necessary to delineate the boundaries of what conduct the

20

government may or may not regulate.” Thomas, 220 F.3d at 1141.

21

For example, here, Plaintiff does not dispute that the Government may permissibly

22

require some number of voter signatures in support of a candidate before placing that candidate

23

on the primary ballot; he simply argues that the requirement of 500 signatures is too burdensome

24

to be permissible. However, under the current posture of this case, there is no record to indicate

25

how many signatures Plaintiff was able to obtain and with what effort, so the Court is essentially

26

being asked to determine, in the abstract, the level of burden imposed by a 500-signature

27

requirement. “This case is a classic one for invoking the maxim that [the Court] do[es] not

28

decide constitutional questions in a vacuum.” Thomas, 220 F.3d at 1141.
6
Case l:17-cv-00128 Document 57 Filed 01/14/20 Page 6 of 8

1

Other considerations also counsel in favor of deciding Plaintiff’s challenge in the context

2

of a specific application for candidacy. If Plaintiff were to file a gubernatorial application without

3

a running mate and without the requisite number of signatures, upholding one of the challenged

4

provisions would be sufficient to uphold the rejection of Plaintiff’s application, and would

5

therefore render moot any challenge to the other provision. In the present context, however,

6

without knowing which of the two challenged provisions Plaintiff might be able to meet, the

7

Court would have no choice but to consider each in turn, even if it upheld the first provision

8

considered and even though that provision, as a practical matter, might be dispositive of

9

Plaintiff’s ability to obtain placement on the primary ballot. Such gratuitous constitutional

10

rulings are to be avoided wherever possible, and a concrete factual scenario is necessary to

11

ensure that the Court does not unnecessarily pass on the constitutionality of both provisions.

12

2.

13

The Court further notes that the hardship of withholding court consideration until a

Hardship of Withholding Court Consideration

14

concrete factual scenario arises is relatively small. First, “[t]he acts necessary to make

15

plaintiff’s] injury ... materialize are almost entirely within plaintiff’s] own control.” San Diego

16

County Gun Rights v. Reno, 98 F.3d 1121, 1127 (9th Cir. 1996). Second, unlike in the context of

17

a criminal statute, where “[t]he alternative to compliance ... would risk serious criminal and civil

18

penalties,” Abbott Laboratories v. Gardner, 387 U.S. 136, 153 (1967), the consequences of

19

proceeding without a ruling from this Court are relatively low, even in the event the challenged

20

provisions are ultimately upheld. Although Plaintiff will have wasted whatever time was spent

21

filling out and submitting an application for candidacy, he will otherwise be in the same position

22

as he would be were the provisions upheld without his first submitting an application. The Court

23

therefore finds that withholding Court consideration will impose little hardship on the parties.

24
25

IV. CONCLUSION
Whether framed as an issue of imminent, redressable injury in fact or as a matter of

26

prudential ripeness, the court concludes that Plaintiff’s challenge—in the absence of any

27

application for candidacy rejected by the GEC—is premature, his alleged injury too remote and

28

speculative. Accordingly, the Court rejects the Report & Recommendation’s finding that Plaintiff
7
Case l:17-cv-00128 Document 57 Filed 01/14/20 Page 7 of 8

Ik.

1

has standing and DISMISSES the action, both for lack of jurisdiction and alternatively on

2

prudential ripeness grounds. Because the facts forming the basis for this decision are undisputed,

3

the Court DENIES LEAVE TO AMEND as futile. In light of this ruling, the Court has no

4

occasion to consider the merits of Plaintiff’s case and therefore OVERRULES AS MOOT

5

Plaintiff’s objections to the proposed finding that the Amended Complaint fails to state a claim

6

and Defendants’ objections to the proposed finding that leave to amend should be granted as to

7

Plaintiff’s equal protection claim.

8
9
10

SO ORDERED
& ^

i\ /s/ Frances M. Tydingco-Gatewood
hi So#> js jt\
1

11
12

Chief Judge
f
WMj Dated: Jan 14, 2020

wr II v

13
14
15
16
17
18
19
20

21
22
23
24
25

26
27

28
8
Case l:17-cv-00128 Document 57 Filed 01/14/20 Page 8 of 8

!"*-*• 41
4-v-

1
2
3
4

5
6

DISTRICT COURT OF GUAM

7
8

SEDFREY M. LINSANGAN,

9
10
11
12
13

CIVIL CASE NO. 17-00128

Plaintiff,
vs.
ALICE M. TAIJERON, JADEEN L. TUNCAP,
G. PATRICK CIVILLE, JOSEPH P. MAFNAS,
JOAQUIN P. PEREZ, MICHAEL J. PEREZ
and BENNY A. PINAULA,

REPORT & RECOMMENDATION
to Deny in Part and Grant in Part
Defendants’ Motion to Dismiss (ECF No. 41)

Defendants.

14
15
16

Before the court is the Defendants’ Motion to Dismiss the Amended Complaint. See ECF

17

No. 41. Neither party requested the court schedule the motion for oral argument, and having read

18

the motion and related filings, the court, in the exercise of its discretion, finds that oral argument

19

is unnecessary.

20

NATURE OF PLAINTIFF’S ACTION

21

On November 30, 2017, the Plaintiff filed suit against the Guam Election Commission

22

(“GEC”) pursuant to 42 U.S.C. § 1983. See Compl. at^TI, ECF No. 1. The Complaint asserted that

23

the GEC violated the Plaintiff’s Fourteenth Amendment right and “various provisions of the Bill

24

of Rights contained within the Organic Act of Guam of 1950. Section 1421b(u), Section 1421b(n),

25

Section 1423d, Section 1421b(h).” Id. atfCLB.

26

According to the Complaint, the Plaintiff attended a GEC meeting in May 2017. Id. at

27

1Him.A and B. At said meeting, the Plaintiff claims he was informed by the Commissioners and

28

legal counsel that he could not run for Governor if he did not have a team or running mate because

Case l:17-cv-00128 Document 48 Filed 04/12/19 Page 1 of 10

I

Sedfrey M. Linsangan V. Alice M. Taijeron, el ai., Civil Case No. 17-00128
Report and Recommendation to Deny in Part and Grant in Part Defendants’ Motion to Dismiss

page 2 of 10

1

Guam law (3 Guam Code Ann. § 15404(a)) required that gubernatorial candidates have a running

2

mate in the primary election. Id. at ^H.D. He asserted that the Chairwoman said “they are just

3

following the law” and was told he “would have to see the Legislature.” Id. at ^UI.A. The Plaintiff

4

also challenged the number of signatures required on the nominating petitions. Id. He contended

5

that the requirement was “excessive” and unfair since candidates for other elected offices (such as

6

the Office of the Public Auditor, the Attorney General of Guam and the Consolidated Commission

7

on Utilities) were not required to have nominating petitions. Id.

8

On December 21,2017, the GEC filed a Motion to Dismiss the Complaint. See ECF No. 4.

9

The Plaintiff opposed the motion, but on June 18, 2018, the Chief Judge granted the Motion to

10

Dismiss but permitted the Plaintiff to file an amended complaint to name the appropriate Section

11

1983 parties and allege facts which establish that his claims are ripe. See Order, ECF No. 31.

12

On June 21, 2018, the Plaintiff filed an Amended Complaint. See ECF No. 33. The

13

Amended Complaint is essentially identical to the original Complaint except that (1) the seven

14

members comprising the Guam Election Commission were named as the Defendants, and (2)

15

additional language was handwritten at the end of

16

he requested in the original Complaint, the Plaintiff asks the court to order the Defendants to accept

17

and certify all Governor and Lt. Governor candidates even without a running mate in the primary

18

election and to reduce the signatures required on the nominating petitions for said candidates. Id.

19

atUV.

20

RD1 and V.2 Among other relief and just as

LEGAL STANDARDS

21

The Defendants’ Motion to Dismiss is brought pursuant to Rule 12(b)(1) and (b)(6) of the

22

Federal Rules of Civil Procedure, arguing that the court lacks subject matter jurisdiction because

23

the Plaintiff has failed to demonstrate his standing and that the Amended Complaint fails to state

24
25
26

1 The additional language handwritten by the Plaintiff was “I informed them that I would
like to run for Governor. Defendants)”] actions deprived me of my right to run for Governor.”
Am. Compl. at 1) U.D.

27
28

2 The added language the Plaintiff wrote was “I pray that the court grant all the relief I’m
requesting so that me [sic] and other people could run for elected offices.” Am. Compl. at T) V.

Case l:17-cv-00128 Document 48 Filed 04/12/19 Page 2 of 10

#

Sedfrey M. Linsangan V. Alice M. Taijeron, etal.. , Civil Case No. 17-00128
Report and Recommendation to Deny in Part and Grant in Part Defendants’ Motion to Dismiss

page 3 of 10

a claim upon which relief can be granted.
2

Article HI of the Constitution limits federal court jurisdiction to actual “cases” and

3

controversies.” See U.S. Const, art. HI § 1. To “satisfy the standing requirements imposed by the

4

‘case’ or ‘controversy’ provision of Article in,” a plaintiff must show that he has suffered, or will

5

imminently suffer, a “concrete and particularized” injury to a “judicially cognizable interest.”

6 Bennett v. Spear, 520 U.S. 154,167 (1997). The plaintiff’s injury must be “fairly traceable to the
7

challenged action of the defendants],” and it must appear likely that the injury would be prevented

8

or redressed by a favorable decision. Id. When determining Article IE standing the court must

9

“accept as true all material allegations of the complaint” and “construe the complaint in favor of

10

the complaining party. ” Maya v. CentexCorp., 658F.3d 1060,1068 (9th Cir. 2011) (quoting Worth

11

v. Seldin, 422 U.S. 490, 501 (1975)).

12

A defendant is entitled to dismissal under Rule 12(b)(6) when a complaint fails to state a

13

cognizable legal theory or alleges insufficient facts under a cognizable legal theory. Somers v.

14

Apple, Inc., 729 F.3d 953, 959 (9th Cir. 2013). The Ninth Circuit has explained that the purpose

15

of a Rule 12(b)(6) motion is to test a complaint’s legal sufficiency. N. Star Int’l v. Ariz. Corp.

16

Comm, 'n, 720 F.2d 578, 571 (9th Cir. 1963). Generally, the plaintiffs burden at this stage is light

17

since Rule 8(a) requires only that a complaint “shall contain ... a short and plain statement of the

18

claim showing that the pleader is entitled to relief.” Fed. R. Civ. P. 8(a).

19

material fact are taken as true and construed in the light most favorable to the nonmoving party.”

20

Sprewell v. Golden State Warriors, 266 F.3d 979,988 (9th Cir. 2001). The court may dismiss based

21

on lack of cognizable legal theory or on the absence of facts that would support a cognizable theory.

22

Balistreri v. Pacifica Police Dep’t, 901 F.2d 696, 699 (9th Cir. 1990). And, while the plaintiffs

23

burden is light, it is not nonexistent — the complaint must “contain either direct or inferential

24

allegations respecting all the material elements necessary to sustain recovery under some viable

25

legal theory.” Bell Ail. Corp. v. Twombly, 550 U.S. 544, 562 (2007) (internal quotation marks

26

omitted). “To survive a motion to dismiss, a complaint must contain sufficient factual matter,

27

accepted as true, to state a claim to relief that is plausible on its face.” Ashcroft v. Iqbal, 556 U.S.

28

662, 678 (2009) (citing Twombly, 550 U.S. at 570) (internal quotation marks omitted). A claim

“All allegations of

Case l:17-cv-00128 Document 48 Filed 04/12/19 Page 3 of 10

i.

Sedfrey M. Linsangan v. Alice M. Taijeron, et al„ , Civil Case No. 17-00128
Report and Recommendation to Deny in Part and Grant in Part Defendants’ Motion to Dismiss

page 4 of 10

1

is facially plausible if “the plaintiff pleads factual content that allows the court to draw the

2

reasonable inference that the defendant is liable for the misconduct alleged.” Id. at 678 (citing

3

Twombly, 550 U.S. at 556). The court must “draw on its judicial experience and common sense”

4

to determine the plausibility of a claim given the specific context of each case. Id. at 679.

5

The court has an obligation, especially in civil rights actions, to construe pro sepleading

6

liberally and gives the pro se plaintiff the benefit of any doubt. Bretz v. Kelman, 773 F.2d 1026,

7

1027 n. 1 (9th cir. 1985); see also Butler v. Long, 752 F.3d 1177, 1180 (9th Cir. 2014). However,

8

the court’s liberal interpretation of a pro se complaint may not supply essential elements of the

9

claim that were not pled. Ivey v. Bd. ofRegents ofUniv. ofAlaska, 613 F.2d 266, 268 (9th Cir.

10

1982). Generally, if a court dismisses apro se complaint it should “grant leave to amend... unless

11

it determines that the pleading could not possibly be cured by the allegation of other facts.” Lopez

12

v. Smith, 203 F.3d 1122, 1130 (9th Cir. 2000).

13

DISCUSSION

14

The motion seeks dismissal of the instant action on various grounds, including (1) that the

15

Plaintiff lacks standing, (2) that the Amended Complaint fails to state a claim upon which relief

16

can be granted and (3) the Defendants are not “persons” under Section 1983. The court will address

17

each of these arguments below.

18

1.

19

The Defendants challenge the Plaintiffs standing to bring the instant action.

20

Defendants argue that although the Amended Complaint now states that the Plaintiff informed the

21

Defendants that he “would like to run for Governor,” Am. Compl. at^fE.D, ECF No. 33, “the desire

22

to do an act does not equate to performing the act or actually carrying through with it.” Defs. ’ Mot.

23

Dismiss at 5,3 ECF No. 41. The Defendants further contend that the Plaintiff did not take the steps

24

necessary to run as a gubernatorial candidate during the last primary election since he failed to pick

25

up a candidate packet and submit the necessary forms before June 26, 2018. Id. The Defendants

Whether the Plaintiff has established standing
The

26

27
28

Page citations to the pending Motion to Dismiss refer to the page number printed at the
bottom of each page, not the page number on the CM/ECF-generated footer.

Case l:17-cv-00128 Document 48 Filed 04/12/19 Page 4 of 10

SedfreyM. Linsangan v. Alice M. Taijeron, et at.,, Civil Case No. 17-00128
Report and Recommendation to Deny in Part and Grant in Part Defendants’ Motion to Dismiss

page 5 of 10

1

assert that “there was never any follow-through to show that [the Plaintiff] actually intended to run

2

for office” and the “new statement in the Amended Complaint... is still not clear and unequivocal

3

evidence of his intent to run for office.” Id. at 5-6.

4

The court disagrees with the Defendants. “Article III of the Constitution requires that a

5

plaintiff have standing before a case maybe adjudicated.” Covington v. Jefferson Cty., 358 F.3d

6

626, 637 (9th cir. 2004). Standing requires that a plaintiff show (1) an injury in fact that is (a)

7

concrete and particularized and (b) actual or imminent; (2) that the injury is fairly traceable to the

8

challenged action of the defendant; and (3) it is likely, as opposed to merely speculative, that the

9

injury will be redressed by a favorable decision. Id. at 637-38 (footnote, citation and internal

10

quotation marks omitted).

11

As noted above, the court must construe the pleadings ofthe Plaintiff, apro se filer, liberally

12

and in his favor. Taking the factual allegations as true and reading them in the light most favorable

13

to the Plaintiff, he has standing in this matter. The Amended Complaint states that the Plaintiff

14

“would like to run for Governor” but the Defendants’ “actions deprived [him] of [his] right to run

15

for Governor.” Am. Compl. at ^ HD, ECF No. 33. He requests that the court grant him relief “so

16

that [he] and other people could run for elected offices.” Id. at 6. Reading the Plaintiffs

17

handwritten statements liberally, the court finds that the Amended Complaint establishes that (1)

18

the Plaintiff wanted to run as a gubernatorial candidate, (2) he was told by the Defendants that he

19

needed a running mate, and (3) his access to the primary election ballot was blocked as a result.

20

His alleged injury is concrete and particularized, not hypothetical as the Defendants claim, and is

21

traceable to the challenged actions of the Defendants.

22

The Defendants next argue that the Plaintiffhas not established standing because his alleged

23

injury is not likely to be redressed by a favorable court decision. The Defendants assert that they

24

were “merely carrying out and enforcing the election laws set in place by [the] U.S. Congress and

25

Guam’s Legislature.” Defs.’ Mot. Dismiss at 6, ECF No. 41. The Defendants contend that even if

26

the court were to rule in the Plaintiff’s favor after trial, the court cannot direct the Defendants to

27

change Guam’s election laws or force them to break the laws. Id. The Defendants argue that any

28

ruling by the court will not provide the Plaintiff with substantial and meaningful relief unless the

Case l:17-cv-00128 Document 48 Filed 04/12/19 Page 5 of 10

SedfreyM. Linsangan v. Alice M. Taijeron, etal., , Civil Case No. 17-00128
Report and Recommendation to Deny in Part and Grant in Part Defendants’ Motion to Dismiss

1

page 6 of 10

United States and the Government of Guam are named as Defendants.

2

The court again disagrees with the Defendants. The Plaintiffs alleged injuiy can be

3

redressed by a favorable court decision. As the Plaintiff notes in his Opposition and the Defendants

4

themselves concede, this court “has the authority to find laws unconstitutional when they run afoul

5

of the provisions and protections of the Constitution. Defs.’ Reply Br. at 6, ECF No. 43. If the

6

court were to strike down the provisions of Guam law that the Plaintiff challenges, then certainly

7

the Plaintiff will receive meaningful relief because he will iio longer be required to have a running

8

mate to run for as a gubernatorial candidate in the primary election, nor will he be required to obtain

9

the minimum 500 signatures on the nominating petition.

10
11

Therefore, insofar as the Defendants’ Motion to Dismiss seeks dismissal ofthe instant action
for lack of standing, the court recommends the Chief Judge deny the motion.

12

2.

13

Liberally construed, the Amended Complaint appears to assert that the Defendants have

14

restricted the Plaintiffs access to be placed on the primary election ballot because (1) he was told

15

he could not run for governor ifhe did not have a running mate and (2) he is required to obtain 500

16

signatures on the nominating petition, but the Plaintiff asserts this is “excessive.” The court will

17

address these claims separately.

Whether the Amended Complaint states a claim upon which relief can be granted

A. r RequirementTor runrnngJnafe...

18
19

It is not clear to the court whether the Plaintiffs Section 1983 claim is premised on a

20

potential violation of the Fourteenth Amendment Due Process Clause or the Equal Protection

21

Clause so the court will address both in its analysis.

22

“To state a substantive due process claim, the plaintiff must show as a threshold matter that

23

a state actor deprived [him] of a constitutionally protected life, liberty or property interest.” Shanks

24

v. Dressel, 540 F3d. 1082,1087 (9th Cir. 2008). The Plaintiff asserts that the Defendants’ reliance
x----------- on Guam law (3 Guam Code Ann. § 15404(a)) prohibited him from running for office.

25
26

Despite the Plaintiffs claims, there is no “fundamental right to run for public office,”

27

Einds^y^. Brown^SQ F.3d 1061,1064 (9th Cir. 2014) (quotiiig^M4iCR-v.-1 F.3d 1317,

28

1324 (9th Cir. 1997)), nor is there a cognizable liberty interest in pursuing or obtaining an elected
\

Case l:17-cv-Q0128 Document 48 Filed 04/12/19 Page 6 of 10

!

Sedfrey M. Linsangan v. Alice M. Taijeron, el at.. , Civil Case No. 17-00128
Report and Recommendation to Deny in Part.and.Grant in Part Defendants’ Motion to Dismiss

page 7 of 10

1

position.

2

determined that an unlawful denial by state action of a right to state political office is not a denial

3

of a right of property or of liberty secured by the due process clause.... [W]e reaffirm it now.”).

4

Accordingly, to the extent that the Plaintiff s Section 1983 claim is premised on a due process

5

violation in relation to his disqualification from candidacy because of the lack of a running mate,

6

the court recommends that said claim be dismissed without leave to amend since he has not stated

7

a legally cognizable claim under the Due Process Clause of the Fourteenth Amendment.

rughes, 321 U.S. 1, 7 (1944) (“More than forty years ago this Court

8

The court next discusses whether the requirement to have a running mate in order to run for

9

governor in the primary election violates the Equal Protection Clause. The Supreme Court has

10

explained that “‘[t]he purpose of the equal protection clause of the Fourteenth Amendment is to

11

secure every person within the State’s jurisdiction against intentional and arbitrary discrimination,

12

whether occasioned by express terms of a statute or by its improper execution through duly

13

constituted agents.’” Sioux City Bridge Co. v. Dakota County, 260 U.S. 441,445 (quoting Sunday

14

Lake Iron Co. v. Township of Wakefield, 247 U.S. 350,352 (1918)).

15

An equal protection claim may be established in two ways. First, a plaintiff may show that

16

the defendant intentionally discriminated against the plaintiff on the basis of the plaintiffs

17

membership in a protected class, such as race. See e.g., Thornton v. City of St. Helens, 425 F.3d

18

1158,1167 (9th Cir. 2005); Lee v. City ofL.A., 250 F.3d 668, 686 (9th Cir.2001). Alternatively,

19

an equal protection claim may be established if the plaintiff alleges that: “(1) he is a member of an

20

identifiable class; (2) he was intentionally treated differently from others similarly situated; and (3)

21

there is no rational basis for the difference in treatment.” Vill. ofWillowbrook v. Olech, 528 U.S.

22

562, 564 (2000).

23

Here, the Plaintiff does not allege that he is a member of a protected class, nor does he allege

24

that he is a member of an identifiable class. And, as noted by the Defendants, the bare conclusory

25

assertions in the Amended Complaint, without any other factual allegations, does not establish that

26

the Defendants intentionally discriminated against the Plaintiff or treated him differently from

27

others who sought to run for governor without a running mate. There simply is no allegation of

28

purposeful discrimination on the part of the Defendants. Accordingly, the court recommends that

Case l:17-cv-00128 Document 48 Filed 04/12/19 Page 7 of 10

Sedfrey M. Linsangan v. Alice M. Taijeron, et al„ , Civil Case No. 17-00128
Report and Recommendation to Deny in Part and Grant in Part Defendants’ Motion to Dismiss

page 8 of 10

1

to the extent that the Plaintiff asserts an equal protection claim, that said claim be dismissed without

2

prejudice. The court recommends the Chief Judge allow the Plaintiff to file a second amended

3

complaint to cure the deficiencies noted above since it is not absolutely clear that the amendment

4

would not be futile.

5

B.

Requirement for 500 signatures on nominating petition

6

Plaintiff appears to claim that the signature requirement is a violation ofhis equal protection

7

rights under the Fourteenth Amendment. Unfortunately, this claim suffers several of the same

8

deficiencies identified above with regard to the Plaintiffs purported equal protection claim in

9

relation to the need for a running mate. The Amended Complaint does not allege that the Plaintiff

10

is a member of a protected class or a member of an identifiable class. The Amended Complaint also

11

contains no allegation of purposeful discrimination on the part of the Defendants against the

12

Plaintiff in requiring that he obtain 500 signatures. Finally, although the Amended Complaint

13

asserts that this requirement is “excessive,” the Plaintiff fails to include any relevant facts or legal

14

authority to support his conclusion that 500 signatures is excessive or whether he even attempted

15

to comply with the requirement. The fact that California or other states may require less signatures

16

on a nominating petition or that candidates for other political offices on Guam, such as senators or

17

mayors, need less signatures on the nominating petitions does not, standing alone, establish that the

18

government of Guam has no rational basis for the difference in treatment.

i

19

As the Supreme Court has recognized, some state regulation that affects political parties

20

serves a compelling interest in protecting “the integrity of the electoral process.” Rosario v.

21

Rockefeller, 410 U.S. 752, 761. “[A]s a practical matter, there must be a substantial regulation of

22

elections if they are to be fair and honest and if some sort of order, rather than chaos, is to

23

accompany the democratic processes f^ioreFviBrown, 41511. S. 724, 730 (1974). Thus, a state

24

may restrict access to the ballot.^ee^iiHdcFv,;Carterr'405'-U-:Sr 134, 145 (1972) (a state “has a

25

legitimate interest in regulating the number of candidates on the ballot”). The Court has upheld a

26

requirement that independent candidates be required to present nominating petitions that

27

demonstrate “a significant modicum of [electoral] support.” Jermess-vrFqrtsonrA'03XJ^A31.442

28

(1971).

Case l:17-cv-00128 Document 48 Filed 04/12/19 Page 8 of 10

j.

'

SedfreyM. Linsangan v. Alice M. Taijeron, etal.,, Civil Case No. 17-00128
Report and Recommendation to Deny in Part and Grant in Part Defendants’ Motion to Dismiss

page 9 of 10

1

Despite the Supreme Court’s rulings, the court believes it is premature to conclude that the

2

Plaintiff can not assert additional facts to cure the deficiencies identified by the court. Accordingly,

3

the court recommends that this claim be dismissed with leave to amend.

4

3.

5

Finally, the Defendants argue that the action should be dismissed because the Defendants

6

are not “persons” under 42 U.S.C. § 1983. Defs.’ Mot. Dismiss at 11, ECF No. 41. Specifically,

7

the Defendants cite to the ca^^fNgirar^as^.f\99Q). There, the Supreme

8

Court held that “neither the Territory of Guam nor its officers acting in their official capacities are

9

‘persons’ under § 1983.” Id. at 192.

Whether D,efendantsj.re “persons”,under;Se6,tio.n~I9831

10

Despite the Ngirangas holding, the Ninth Circuit in Guam Society of Obstetricians &

11

Gynaecologists v. Ada held that a Guam officer sued in his official capacity is a “person” within the

12

meaning of Section 1983 when sued for prospective relief. 962 F.2d 1366,1370 (9th Cir. 1992).

13

The Ninth Circuit reaffirmed this holding in Paeste v. Government ofGuam, 798 F.3d 1228,1237

14

(9th Cir. 2015). The Ninth Circuit distinguished Ngirangas by noting that the plaintiffs in that case

15

were suing Guam and several Guam officials in their official capacities for damages. In Ada and

16

Paeste, however, the plaintiffs were seeking prospective injunctive relief.

17

In this case, the Plaintiff seeks declaratory and injunctive relief. Based on Ada and Paeste,

18

the Defendants in their official capacities are “persons” within the meaning of Section 1983.

19

Accordingly, insofar as the Defendants’ Motion to Dismiss seeks dismissal of the instant action

20

because the Defendants are not “persons” under Section 1983, the court recommends the Chief

21

Judge deny the motion.4

22

CONCLUSION

23

Based on the above, the court recommends that the Chief Judge grant in part and deny in

24

part the Motion to Dismiss. The motion should be denied in part because the Plaintiff has

25

demonstrated standing to challenge the election laws at issue here and because the Defendants are

26

persons within the meaning of Section 1983 for purposes of the declaratory and injunctive relief

27
28

4 To the extent that the Amended Complaint seeks an award of damages against the
Defendants, then such relief is barred by Ngirangas.

Case l:17-cv-00128 Document 48 Filed 04/12/19 Page 9 of 10

. V
SedfreyM. Linsangan v. Alice M. Taijeron, et al.,, Civil Case No. 17-00128
Report and Recommendation to Deny in Part and Grant in Part Defendants’ Motion to Dismiss

page 10 of 10

1

sought by the Plaintiff. As to whether the Amended Complaint should be dismissed because it fails

2

to state a claim upon which relief can be granted, the court recommends the Chief Judge grant the

3

motion in part and deny it in part as follows: (1) dismiss with prejudice the Plaintiffs claim of a

4

violation of the Due Process Clause of the Fourteenth Amendment and (2) dismiss without

5

prejudice the Plaintiffs claims that the Defendants violated his Equal Protection Clause rights

6

under the Fourteenth Amendment.

7

IT IS SO RECOMMENDED.

8
9
10

^ J°a(lu'n V.E. Manibusan, Jr.
7Ws Wj U.S. Magistrate Judge
V Dated: Apr 12, 2019

11
12
13
14
15

NOTICE
Failure to file written objections to this Report and Recommendation within
fourteen (14) days from the date of its service shall bar an aggrieved party
from attacking such Report and Recommendation before the assigned
United States District Judge. 28 U.S.C. § 636(b)(1)(B).

16
17
18
19
20

21
22
23
24

v

25
26
27

28

Case l:17-cv-00128 Document 48 Filed 04/12/19 Page 10 of 10

FILED

UNITED STATES COURT OF APPEALS

SEP 29 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S, COURT OF APPEALS

SEDFREY M. LINSANGAN,
Plaintiff-Appellant,
v.
ALICE M. TAIJERON; et al.,

No.

20-15103

D.C.No. l:17-cv-00128
District of Guam,
Agana
ORDER

Defendants-Appellees.
Before: THOMAS, Chief Judge, and HAWKINS and McKEOWN, Circuit
Judges.
The full court has been advised of the petition for rehearing en banc, and no
judge has requested a vote on whether to rehear the matter en banc. Fed. R. App.
P.35.
The petition for rehearing en banc is denied.

\

J .
tara

Pro'S; 15 (Rev, 12/16) Complaint for Violation of Civil Rights (Non-Prisoner)

1 Bum &*»
DISTRICT COURT OF GUAM

United States District Court

JUM 21 2018

for the
District of

JEANNE G. QUINATA
CLERK OF COURT

Division

( Pf- a £ e \

s^r (y\ jL m3ci^
Plainlijffs)

t Write the. full name of each plaintiff who is filing this complaint.
If the name'' of all the plaintiffs cannot fit in the space above,
pit-use write "see attached" in the space and attach an additional
page with the full list of names, j
rV-

Alice ffO Tsi^e ho*,
ca. P<p~t ‘-(.dPS. C-i\rll\e ) J OSet? in
^

P-

j3 <t VO VX •'y

P-e H-<f 2-

A- • P i

___

MloUail

{
R
-J; Pet-<£X

Ct c, { a.

Defendantsj
tll'rile the full name of each defendant who is being sued. If the
'names of nil the defendants cannot jit in the space above, please
■i ri/c "see attached " in the space and attach an additional page
ii ith the lull list of names. Do nut include addresses here.)

I

)
)
)
)
)
)
)
)
)
)
)
)
)
)
)

Case No.

/ 71- 00
(to be filled in by the Clerk "s Office)

Jury Trial: (checkone)

A

yv\ e.

^d

I

[Yes

e<4

c?

IvPNq

m

CP

\ a i voH-

COMPLAINT FOR VIOLATION OF CIVIL RIGHTS
(Non-Prisoner Complaint)

NOTICE
Federal Rules of Civil Procedure 5.2 addresses the privacy and security concerns resulting from public access to
electronic court files. Under this rule, papers filed with the court should not contain: an individual’s full social
security number or full birth date; the full name of a person known to be a minor; or a complete financial account
number. A filing may include only, the last four digits of a social security number; the year of an individual s
birth; a minor's initials: and the last four digits of a financial account number.
Except as noted in this form, plaintiff need not send exhibits, affidavits, grievance or witness statements, or any
other materials to the Clerk's Office with this complaint.
In order for your complaint to be filed, it must be accompanied by the filing fee or an application to proceed in
forma pauperis.

Page I of ft

«ri?
Pro Se 15 (Rev. 12/16) Complaint for Violation of Civil Rights (Non-Prisoner)

I.

The Parties to This Complaint
A.

The Plaintiffs)
Provide the information below for each plaintiff named in the complaint. Attach additional pages if
needed.
Name
Address

Sedjyi'i A'l 1^
p. €,
2V2^___

^

(3
County
Telephone Number
E-Mail Address
B.

<
Zip Code

State

City

<929- i

-

kg*?-? - gP" 9~_

The Defendant(s)
Provide the information below for each defendant named in the complaint, whether the defendant is an
individual, a government agency, an organization, or a corporation. For an individual defendant,
include the person’s job or title (if known) and check whether you are bringing this complaint against
them in their individual capacity or official capacity, or both. Attach additional pages if needed.
Defendant No. 1

A\i\ <ZC.

Name
Job Or Title (if known)

Address

|A . ~Tv!

_______________

(£o&
<Z In 4 it* pe>- £,£>^
tfjif kiseff ^>&lze/-0>oi

ieC.-i-(ov\

City

t

1°'".

^ <- > "h C S2. o 2D
<-7b9( O

a'i UtCi

2)*.«

C& m

Zip Code

State

County
Telephone Number
E-Mail Address (if known)
I

| Individual capacity

0 Official capacity

Defendant No. 2

L

Name
Job 01' Title (if known)

Address

TobC-gp
(5EUtc-fto^
C

if./\A/esf ^>QA ^ e
2. tod f/oOiCity

tn w-<Z.

<$ t- Ot w/y
Stale

Cf>

<? 6 9/ 0
Zip Code

County
Telephone Number
E-Mail Address (if known)
|

| Individual capacity

0'Official capacity

Page 2 of 6

Z

•‘Vi- v- iMKo I-

i. "iiif’i;u;n h«i S inl:jlh>it nl { i\il Kiyhis {•Nmi-I'n.viicn

Defendant No. 3
Name
Job or Title (if known)
Address

<%\ P^i>fC^ C\r-i l\e_
fep
f <3 L- a
C <o v*-) y*~i v S- *2- \ & v'"v £, ^2.

^|-ec
f-- /

t3>(^ th^L^t^ g.

<?6<y f o

State

Ci/y

__
^

Z/'p Cot/e

County
Telephone Number
E-Mail Address
□ Individual capacity

□ Official capacity

Defendant No. \ Stls f » .
Name
Job or Title (ifknown)
Address

J)oS>epVs

Mg-fvxAS t

MtChtjc.1 J. K>-tb<Z.1
t
/W -g
fj v-ff
<£? t'V'-l Vc-, ^ 5=>

\

V\ |

J

va

B><?vm
/A
^
I €<2- -4- f g? w_______
? ^g(

City
County
Telephone Number
E-Mail Address

|3» 1 <kA

K^?

□ Individual capacity
U.

p. a
( (S>Ot~

State

"f t-A A

(fk. C i C_

Zip Code

W

( O

□ Official capacity

Basis for Jurisdiction
Under 42 U.S.C. § 1083. you may sue state or local officials for the "deprivation of any rights, privileges . or
immunities secured by the Constitution and [federal hvvvs|." Under Bivens r. Six Unknown Named Agents of
kcderal Bureau, of Narcotics. 4U3 U.S. 3SH 11971). you may sue federal officials lor the violation of
certain constitutional rights.
A.

Are you bringing suit against (cheek tdi that, apply):
f ederal officials (a Bivens claim)
Suue or local.officials (a § 1983 claim)

B.

Section 1983 al lows claims alleging the "deprivation of any rights, privileges, or immunities
secured by the Constitution and [ federal laws|." 42 U.S.C. $ 19X3. If you are suing under
section 1983. what federal constitutional or statutory right(s) do you claim is are being violated
bv stale or local officials'.’

Fourteenth Amendment to the United States Constitution, various provisions of the Bill of Rights contained within the
Organic Act of Guam of 1950. Section 1421 b(u). Section I421b(n), Section 1423d. Section 1421b(h).

3

I'm sc i s • Ko i 1 I*»m >-mpl;n>ii ti•• \ i> l.umii i-!'( i \ ii Kiuiii.s {\i'M'l'nst'ik-n

Plaintiffs suing under Bivens may only recover lor the violation of certain constitutional rights, i I'
you are siting under Biwns. what constitutional right(s) do you claim is are being violated by
federal officials?

C.

Section 1983 allows defendants to he found liable only when they hav e acted “under color of
tiny statute, ordinance regulation, custom, or usage, of any State or Territory or the District of
Columbia." 42 U.S C. ij 1983. If you are suing under section 1983. explain how each defendant
tided under color of state or local law. If you are suing under Bivens, explain how each
defendant acted under color of federal law. Attach additional pages if needed.

D.

Guam Election. Commission is enforcing subsection (a) of § 15404 of Chi 5 of 3GCA. It mandates that gubernatorial
candidates need to have a running mate in the primary election. The Commissioners and legal counsel informed me that 1
cannot run for Governor if I don't have a team or running mate. They are also requiring all candidates to seek nominating
petitions that are too excessive. They are also practicing inequality issues by not requiring candidates running for other
elected offices such as OPA, AG, and CCU offices to seek nominating petitions.
^

J- L,

£*

t-' l
.S

If

'f—o y-

P >r^< i-ccJ

iss

-fe> y,

^ e <?’T

(Z<s> L- ej~
/~ / f ^

& J~ <
y o y-

Z><£

I'-i

Z&j-

S

3a

n

State us briefly as possible the facts of your case. Describe how each defendant was personally involved
in the alleged, wrongful action, along with the dates and locations of all relevant events You may wish
to include further details such as the names of other persons involved in the events giving rise to your
claims. Do not cite any cases or statutes. If more than one claim is asserted, number each claim and
write a short'and plain statement of each claim, in a separate paragraph. Attach additional pages if
needed.
.

JTT

£ i-s-t-L
A.

^

^ C /£« —

Where did the events giving rise to your claiin(s)occur?

Guam Election Commission meeting held May 2017. I raised my issues in the public participation. Executive director and
the rest of the Commission were present. The Chairwoman told me they are just following the law. They asserted their
position of the requirements of running mate and nominating petition, and that I would have to see the Legislature.

B.

What date and approximate lime did the events giving rise to your claim!s) occur"’

Events occurred in the past elections and up to present, when (attended the Guam Election Commission meeting held on
May 2017 around 7:00 pm.
4

I'n- sc i ^ i lw\ I ‘ !••; i • .iiiplanti ii*< \ n•l;ni>*n t-I ( i>. >1 UjuIiin i Nnn-I'risi >Hvi )

U

VV hal are the facts underlying your daim(s)? /For example li'lutl happened in ; nil ' Who did what?
tin, one ei>e involved'.' U lto vise sinv what happened':

.VI v claim is that they are denying me of my constitutional, organic, and US rights. They are also practicing
inequality on nominating petition requirements that are also excessive. The Guam Election Commission Legal
Counsel told me that f have to go to Congress for my concerns. At the Guam Election Commission meeting, 1
reasoned out that Section 1422 of the Organic Act of Guam does not mandate that the Gubernatorial candidate is
required to have a running mate/team .in the primary election. Section 1422 is referring to the general election. Since
it is specilied in the provision that the Governor of Guam together with the Lt. Governor shall be elected by a
majority of votes cast by the people who are qualified to vote for members of the Legislature of Guam. In the
• primary election, candidates are not yet elected as Governor and Lt. Governor. They are voted to represent their party
in the general election by plurality or most votes not by majority.
Section 1422 also specifies that the Governor and Lt. Governor shall be chosen jointly by the casting by each voter
of a single vote applicable to both offices. This provision will be satisfied since the candidates for Governor and Lt.
Governor that received the most votes in the primary election can team up for the general election.
In California and all other US states. Governor and Lt. Governor can run separately and are voted as such. In the'
presidential primary election, the candidates do not need a running mate until the general election. Guam should
follow that system othenvise Guam will be in violation.

11 >ou sustained injuries related to the events alleged above, describe your injuries and slate what medical treatment,
if any, you required anddidordid not receive,

V.

Relief
Slate briefly what you want the court to do for you. Make no legal arguments. Do not cite any eases or
statutes, if requesting money damages, include the amounts of any actual'damages aml. or punitive damages
claimed !‘or the acts aiieged. Explain the basis lor these claims.

1 want the court to declare the current conduct of primary election for Governor and Lt. Governor unconstitutional, unorganic.
undemocratic, and a deprivation of rights of US citizens.
1 want the court to order Guam Election Commission to accept and certify all the Governor and Lt. Governor candidates
even without a running mate in the primary election. GF.C allows Mayoral candidates to run separately, but not gubernatorial.
5

1-’

.

• s
j'r, sc- j ■» <Kcv i 1 l'-i. <<ji:pi;nM(

\ n-|.,iii.<;i. .| ( i\il Ki-Jik ( \t•n-l-’; t>.•ncfI

I want the court to order Guam Election Commission to accept and certify the Governor and Lt. Governor candidates if they
have a team or running mate, but they will be voted separately in the primary election. Each voter wili cast a single vote
applicable to one oflice only in the primary election for all candidates with or without a running mate.
I want the court to allow or authorize the winning candidates for Governor of each party to select his running mate in case
the winning Lt. Governor candidate of each party declines to team up or if something should happen to him by an act of
God.
1 want the court to reduce the nominating petition requirement for candidates. The current law mandates 500 for Governor
and Lt. Governor, 250 for Senator, 100 for Mayor and Vice Mayor. This practice is excessive and a violation of the Bill of
Rights. In California, only 65 nominating petitions is needed for Gubernatorial candidates. California has 39.6 million in
population while
Guam is only 174.000.
I want the court to order Guam Election Commission to practice equality for all candidates. OPA, AG. CCU candidates
should also seek nominating petitions. Right now, they are not required to seek any.
1 want the court to order Guam Election Commission to require a fair, impartial nominating petition to all (50 for Governor,
Lt. Governor, and Congress, 30 for Senator, OPA, AG, 25 for Mayor and Vice Mayor. 10 for CCU Board Member).
1 want the court to award costs, fees, and expenses, as authorized by all provisions of law.
1 want the court to expedite the trial in January 2018 since my pleading sets out a claim for relief that does not require
a responsive pleading.

cx(f 1Z-

J~ a

<£
C* <27 f-' I

<r r i- f ^ ^
J—' Ls tsy

>

SO
€/<C

-f- h. <• V
c/

<vn <
&

6

o(

C* f '

’f' ^ & j—

(p•€ o

r
Pro Se 15 (Rev. 12/16) Complaint for Violation of Civil Rights (Non-Prisoner)

VI.

Certification and Closing
Under Federal Rule of Civil Procedure 11, by signing below, I certify to the best of my knowledge, information,
and belief that this complaint: (1) is not being presented for an improper purpose, such as to harass, cause
unnecessary delay, or needlessly increase the cost of litigation; (2) is supported by existing law or by a
nonfrivolous argument for extending, modifying, or reversing existing law; (3) the factual contentions have
evidentiary support or, if specifically so identified, will likely have evidentiary support after a reasonable
opportunity for further investigation or discovery; and (4) the complaint otherwise complies with the
requirements of Rule 11.

A.

For Parties Without an Attorney
I agree to provide the Clerk’s Office with any changes to my address where case—related papers may be
served. I understand that my failure to keep a current address on file with the Clerk’s Office may result
in the dismissal of my case.
Date of signing:

(if

Signature of Plaintiff
Printed Name of Plaintiff
B.

<eck^f~>~ ~y

I— f

Q

Q l—,

For Attorneys
Date of signing:

Signature of Attorney
Printed Name of Attorney
Bar Number
Name of Law Firm
Address
City

Telephone Number
E-mail Address

?-

Slate

Zip Code

Additional material
from this filing is
available in the
Clerk's Office.

a

